Supreme Court, U.S,
FILED

NOV 3 0 2020
No.

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES
HEYANGJING SHI ET.AL.
-PETITIONER(S)
vs.

JIM J MASH
-RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO
STATE OF NEW YORK
COURT OF APPEALS
PETITION FOR WRIT OF CERTIORARI

XUE JIE HE , Pro Se
©

40 Ann Street

New York, New York 10038

3472689418

QUESTION PRESENTED
Whether it violates the equal protection clause of the Fourteenth Amendment to the
U.S. Constitution,
1. There is no one plaintiff in the contract, can he file a lawsuit against the
contract, under GOB - § 5-703(2)?
2. An unauthorized use Name in title of the action, is it a void judgment? and can
it be executed?

LIST OF PARTIES
[• ] All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition is
as follows:

XueJie He
-PETITIONER(S)

RELATED CASES
Pavesich v. New England Life Ins. Co., 50 S.E. 68 (Ga. 1905)

INDEX TO APPENDICES
APPENDIX A

ORDERED, the motion for poor person is dismissed, that the motion for
leave to appeal is dismissed that this Court does not have jurisdiction
(see NY Const, art VI, § 3; CPLR 5602);
[Mo.No.2020-64] State Of New York Court Of Appeals [Hon. Janet
DiFiore, presiding]. [Entered:04/20/20]

APPENDIX B

Petitioner creditor(s) Jim J. Mash,
ORDERED: That a warrant of eviction shall issue removing all named
respondents from the described premises.
[LT -053082-18/RI] Civil Court of the City of New York County of
Richmond. [Hon.Kimberley Slade.]. [Entered:02/02/19]

APPENDIX C

ORDERED that the motion for reargument of a motion for poor person
leave to appeal is denied.
[Mo.No.2020-396] State Of New York Court Of Appeals [Hon. Janet
DiFiore, presiding]. [Entered:09/01/20]

APPENDIX D

Notice of Appeal, Filed By: (R) Heyangjing Shi; (R) Xuejie He.
[53082/18][Entered:02/214/19]

APPENDIX E

ORDERED that appellant’s motions of granting poor person, free
transcripts and assignment of counsel are denied.
Absent are affidavits of service showing service of the motion papers
on the Corporation Counsel as mandated by CPLR 1101 (c).
[2019-573 RIC] Appellate Term Of The Supreme Court Of The State Of
New York For The 2Nd, 11Th & 13Th Judicial Districts.[Hon. Michael L.
Pesce, P.J.Thomas P. Aliotta .David Elliot, JJ.].[Entered:07/15/19]

APPENDIX F

ORDERED that Heyangjing Shi’s motion is denials for granting leave to
proceed as a poor person, and authorizing the state to pay the costs
for a stenographic transcript.
[LT -053082-18/RI] Civil Court of the City of New York County
of Richmond.[Hon.Thomas P. Aiiotta.]. [Entered:0314/19]

APPENDIX G

ORDERED that the Xuejie He’s motion is denials for granting leave to
proceed as a poor person, and authorizing the state to pay the costs
for a stenographic transcript.
[LT -053082-18/RI] Civil Court of the City of New York County of
Richmond. [Hon.Thomas P. Aiiotta.]. [Entered:0314/19]

APPENDIX H

Xuejie He waived that fee for filing a Notice of Appeal in this action.
[LT -053082-18/RI] Civil Court of the City of New York County
of Richmond.[Hon.Frances Ortiz][Entered:02/21/2019]

APPENDIX I

Lease,Receipt for Shi: 08/01-08/31. [Entered:07/28/2019]

APPENDIX J

Receipt for He: 12/011-12/31, Pay for Shi with He: January rent;
February rent to Jim Mash.

APPENDIX K

Ownership is Jim Mash.

APPENDIX L

Notice Of Eviction. [Entered: 03/01/19]

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A._____ to the petition and is
[ ] reported at
or,
[ ] has been designated for publication but is not yet reported; or,
[•] is unpublished.
The opinion of the____ State Of New York Court Of Appeals
______ court appears at Appendix A
to the petition and is
[ ] reported at
;or,
[ ] has been designated for publication but is not yet reported; or,
[•] is unpublished.
JURISDICTION
[•] For cases from federal courts:
The date on which the highest state court decided my case was April 02.2020 .
A copy of that decision appears at Appendix A.____ .
[ ] A timely petition for rehearing was thereafter denied on the following date:
September 01,2020 and a copy of the order denying rehearing
appears at Appendix C______ .
The jurisdiction of this Court is invoked under 28 U.S.C. 1257(a

1.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Fourteenth Amendment to the United States Constitution (Section 1.)
Section 1. All persons bom or naturalized in the United States, and subject to the
juris-diction thereof, are citizens of the United States and of the State
wherein they reside. No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.
New York-CVR § 50
A person, firm or corporation that uses for advertising purposes, or for the purposes of
trade, the name, portrait or picture of any living person without having
first obtained the written consent of such person, or if a minor of his or her
parent or guardian, is guilty of a misdemeanor.
New York-GOB § 15-501(2). Executory accord
2. An executory accord shall not be denied effect as a defense or as the basis of an
action or counterclaim by reason of the fact that the satisfaction or
discharge of the claim, cause of action, contract, obligation, lease,
mortgage or other security interest which is the subject of the accord was

2.

to occur at a time after the making of the accord, provided the promise of
the party against whom it is sought to enforce the accord is in writing and
signed by such party or by his agent. If executed by an agent, any
promise required by this section to be in writing which affects or relates to
real property or an interest therein as defined in section 5-101 in any
manner stated in subdivisions one or two of section 5-703 of this chapter
shall be void unless such agent was thereunto authorized in writing.
28 U.S. Code § 1915(a)(1)
(a) (1) Subject to subsection (b), any court of the United States may authorize the
commencement, prosecution or defense of any suit, action or proceeding, civil
or criminal, or appeal therein, without prepayment of fees or security therefor,
by a person who submits an affidavit that includes a statement of all assets
such prisoner possesses that the person is unable to pay such fees or give
security therefor. Such affidavit shall state the nature of the action, defense or
appeal and affiant’s belief that the person is entitled to redress.

STATEMENT OF THE CASE

1. This is a civil action for eviction by the respondent Jim J Mash (“Mash”or” respondent”)
against the petitioners Heyangjing Shi (“Shi” or”Petitioner,") and Xuejie He,
(“He”or”Petitioner,”).

3.

2. On July 28 ,2017, Yangfen Li (“Li”) with Shi signed lease for 126 Scribner Avenue, 1st
Floor 4# bedroom, Staten Island, NY 10301 and, recover August(08/01-08/31) rent and
deposion, that bedroom’s smallpox was leaking, move inside this bedroom on August
01,2017. [A-I]
3. Li asked Shi to pay rent to Jim Mash account (no respondent) from September ,2017. [A-J]
4. He moved in the Shi’s bedroom, Li forced He to pay her rent directly(12/l 1-12/31) to Jim
Mash account (no respondent) on December 11,2017. [A-J]
5. The respondent served the 30 Day Notice (9-27-18) to Petitioners on August 22,2018.
6. The respondent sued Petitioners for eviction on October 16,2018 But,
Homeowner is Jim Mash and Yangfen Li, isn't respondent Jim J Mash. [A-K]
7. On February 01,2019, ORDERED: Creditors) Jim J. Mash, that a warrant of eviction shall
issue removing all named respondents from the described premises on Civil Court of the City
of New York County of Richmondby. [A-B].
8. On February 13,2019, Petitioners filed a timely Notice of Appeal. [A-D]
9. On February 14,2018, Motion for granting as a poor person and to waive court fees were
declined on Civil Court of the City of New York County of Richmondby.
10. On February 21,2019, He retrial motion for as a poor person only were waived that fee for
filing a Notice of Appeal on Civil Court of the City of New York County of Richmondby.
[A-H].

4.

11. On March 1,2019, NY city Marshal executed the judgment of unauthorized to use Name.
[A-L].
12. On March 14,2019, Shi and He Motion for granting as poor person, free transcripts were
declined on Civil Court of the City of New York County of Richmondby. [A-F] [A-G].
13. On Arilp 23,2019, ORDERED that appellant’s motions of granting poor person, free
transcripts and assignment of counsel are denied on Appellate Term Of The Supreme Court
Of The State Of New York For The 2Nd, 1 ITh & 13Th Judicial Districts. [A-E]
14. On Arilp 02,2020, State Of New York Court Of Appeals dismissed the motion of petitioners
for a poor person to leave to appeal. [A-A].
15. On September 01,2020, State Of New York Court Of Appeals denied the motion of
petitioners for reargument for a poor person to leave to appeal. [A-C].
16. WHEREFORE petitioner(s) prays for judgment against respondent, and each of them as
follows:
• Returning all named petitioners to the described premises.
• For punitive damages according to proof.
• For reasonable studied law fees and costs incurred herein, For such other and further
relief as the court may deem just and proper.

5.

REASONS FOR GRANTING THE WRIT
REASONS FOR GRANTING THE WRIT was the lower Court ofjudiciary discrimination:
The lower Court dismissed the motion of Petitioner for a poor person to leave to appeal,
violates 28 U.S. C.§1915.
Has so far departed from the accepted and usual course ofjudicial proceedings, sanctioned such
a departure by a lower court, as to call for an exercise of this Court's supervisory power.

CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted,

Pate:

November 28. 2020

6.

